W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-163

George Cantu

Providene Hospital, et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
SANJEEV VADERAH, MD

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

James E. Baker

Date:

8/20/21

Digitally signed by James E. Baker
Date: 2021.08.20 08:45:52 -07'00'

(Type or print) Name James E. Baker
Mr.

Ms.

Mrs.

Firm

Moberg Rathbone Kearns, P.S.

Address

238 W. Division Ave

City & State

Ephrata, WA

Phone

5097542356

Miss

Zip 98823
Email

jbaker@mrklawgroup.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

William C. Budigan

